Record Press Inc., 229 West 36th Street, New York, N.Y. IDDIB•
Tel: (212) 619-4949• Fax No. (212) 608-3141

STATE DF NEW YORK.

SS:

COUNTY DF NEW YORK
Samantha Callins being duly

AFFIDAVIT OF SERVICE

85478

deposes and says that deponent is

party ta the

and is aver 18 years

age.

That an the 7th day

January 2020 deponent served 3
the within
PETITION FDR AWRIT OF CERTIORARI
the attorneys at the addresses
and by the

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Gurbir S. Grewal
Office the Attorney General far the State
RJ Hughes Justice Complex
25 Market Street Bax 080
T
NJ 08825-0080
SOS-282-4825

N. Stephens II, Acting Essex
Frank J.
Appellate Section
Caroline C. Galda. Appellate Section
STATE DF NEW JERSEY
Veterans
50 West Market Street
Newark. New Jersey
(873) 821-4700

I. Samantha Callins. declare under penalty

New Jersey

perjury under the laws the United States America that the
is true
and correct. executed an January 7. 2020. pursuant ta Supreme Court Rule 28.5(c). All parties required to be served. have been

~Goill©

served.

Samantha Collins
Sworn to me this

January 7. 2020
Jasmine Williams
Notary Public. State of New Yark
Na. OIWIS387848
l1ualified in l1ueens
Commission Expires September IS. 2023

Public

Case Name: New Jersey v. Andrews
Docket/Case No. A-72-18

